C@QCKLE

2311 Douglas Street .
Omaha, Nebraska 68102-1214 Legal B clets
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
DAKAI CHAVIS,
Petitioner,
vs.
STATE OF DELAWARE,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7052 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of September, 2020.

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

thor Oudiav-h, Chl

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
‘My Comm. Exp. September 6, 2023
Notary Public

Affiant

39903
